No. _______

In the
Supreme Court of the United States

Taniko C. Smith,
Petitioner,
v.
Brian E. Williams, Sr., et al.,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Emma L. Smith
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Emma_Smith@fd.org
*Counsel for Taniko C. Smith

I certify that on September 9, 2021, I delivered the original and ten copies of
Petitioner Taniko C. Smith’s Petition for Writ of Certiorari and Motion to Proceed In
Forma Pauperis to a third-party commercial carrier for delivery to the Clerk within
three calendar days, pursuant to Rule 29.2.
I further certify that on September 9, 2021, I served the required parties one
copy of the forgoing Petition for Writ of Certiorari and Motion to Proceed In Forma
Pauperis by mail as addressed below, pursuant to Rule 29.3
I also certify that in accordance with Rule 29.3, I served an electronic version
of the foregoing.
Erica Berrett
Deputy Attorney General
Office of the Attorney General
555 E. Washington Ave., Ste 3900
Las Vegas, NV 89101
EBerrett@ag.nv.gov
Dated September 9, 2021,
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/ Emma L. Smith
Emma L. Smith
Assistant Federal Public Defender

1

